A-l
THE STATE OF NEW HAMPSHIRE
SUPREME COURT
In Case No. 2021-0132, Richard A. Waite v. Northern New
Hampshire Correctional Facility, the court on May 28, 2021
issued the following order:
’
Notice of appeal is declined. See Rule 7(1)(B).
Under Supreme Court Rule 7(1)(B), the supreme court may decline to
accept a notice of discretionary appeal from the superior or circuit court. No
appeal, however, is declined except by unanimous vote of the court with at least
three justices participating.
This matter was considered by each justice whose name appears below. If
any justice who considered this matter believed the appeal should have been
accepted, this case would have been accepted and scheduled for briefing.
Declined.
Hicks, Bassett, Hantz Marconi, and Donovan,

concurred.

Timothy A. Gudas,
Clerk
Distribution:
Cheshire County Superior Court, 213-2020-CV-00191
Honorable David W. Ruoff
7 Mr. Richard Waite
Attorney General
File

i

THE STATE OF NEW HAMPSHIRE
JUDICIAL BRANCH
SUPERIOR COURT
Cheshire Superior Court
33 Winter Street, Suite 2
Keene NH 03431

Telephone: 1-855-212-1234
TTY/TDD Relay: (800) 735-2964
http://www.courts.state.nh.us

NOTICE OF DECISION

r-ai

Richard A Waite
NHSP# 91955
138 East Milan Road
Berlin NH 03570

Case Name:
Case Number:

Richard A Waite v Northern NH Correctional Facility
213-2020-CV-00191

Enclosed please find a copy of the court’s order of March 10, 2021 relative to:
Ruling on Motion to Dismiss
March 12, 2021

Daniel J. Swegart
Clerk of Court

(555)
C:

k
\

NHJB-2503-S (07/01/2011)

taken under advisement, Mr. Waite is given another 45 days to respond. DWR

THE STATE OF NEW HAMPSHIRE
CHESHIRE, SS.
DOCKET NUMBER.-213-2020-CV-00191

SUPERIOR COURT

STATE OF NEW HAMPSHIRE
v.
RICHARD WAITE
STATE’S OBJECTION TO MOTION FOR SUMMARY JUDGMENT AND
STATE’S MOTION TO DISMISS FOR LACK OF JURISDICTION
NOW COMES the State of New Hampshire, by and through the Office of
the Cheshire County Attorney, and submits this Objection and Counter
Motion. In support of this Motion, the State asserts:
1. The Defendant was convicted of numerous Aggravated Felonious
Sexual Assault and related charges and sentenced on April 01, 2016 to a total
of 45-life, stand committed and several suspended sentences.
2. He appealed the verdict to the New Hampshire Supreme Court where
' he was represented by attorney Thomas Barnard of the Public Defender’s
Office, Appellate Division (Barnard). He lost that appeal. He,
contemporaneously with the first appeal, filed a pro se appeal for ineffective
assistance of counsel on his trial attorney Matthew Hill, also of the Public
Defender’s Office (Hill). That appeal was not accepted by the New Hampshire
Supreme Court.
3. The Defendant has filed a Motion For Summary Judgment with the
argument that there can be no debate over the existing facts of the current
Habeas. The State disagrees. It disagrees that there are no issues of fact. It
also disagrees that the Defendant accurately states the applicable law in
regards to the representation of Thomas Barnard (Barnard) of the Public
Defender’s Office.
2. The mere fact that there exists a material disagreement about factual
issues is sufficient to deny the Motion for Summary Judgment at this point.

Cr~\

However, below the State will also illustrate the fundamental misrepresentation
from the Defendant in regards to the applicable law on Public Defender
representation when there is a concurrent claim of Ineffective Assistance of
Counsel of a Public Defender.
Misrepresentation of the Full Holding of Veale
3. The defendant cites State v. Veale, 154. N.H. 730 (2007) as basis for
arguing that the Public Defender’s Office divisions of Trial counsel (Trial
Defender) and Appellate Divisions (Appellate Defender) are considered one firm
and are, therefore, barred from representing Defendants when a conflict exists.
The Defendant then ceases to reference Veale, either through as dishonest
representation to the Court or because he fails to understand the full holding.
4. Veale dealt with a very similar issue to the one facing the Defendant
and is directly on point to the entire basis for the current Habeas. In Veale, as
in the current case, the appellant was represented by the Public Defender’s
Office at Superior Court (in his case a competency hearing). After that issue
was resolved, the appellant pursued an Ineffective Assistance of Counsel claim
against the public Defender who initially represented him. His case on appeal
was initially assigned to the Public Defender Appellate program. That program
initially claimed that this was a conflict and the issue was presented to the
Supreme Court to determine if the Public Defender’s Office could handle the
appeal if there was a concurrent Ineffective assistance of Counsel claim against
another Public Defender.
5. The Defendant here is correct that the Court did rule that the two
divisions of the Public Defender’s program do represent a single office but the
analysis did not stop there. The Court ultimately ruled that the Appellate
Defender is not barred from representing a defendant in such an instance,
however, if an Ineffective claim is appealed, the other claims are stayed pending
the resolution of that issue.
Under this Hybrid approach, if, on appeal, a defendant has raised
a claim of ineffective assistance against a public defender and the
appellate defender has been appointed as appellate counsel, the
appeal will, absent special circumstances, be stayed. This stay
shall be automatic and shall take effect without regards to the

merits of the ineffective claim. In this way, raising a claim of
ineffective assistance will act as a per se bar, at least temporarily,
to continuing representation by the appellate defender.
Following the imposition of the stay, a defendant’s ineffective
assistance claim will be adjudicated on its merits in superior court.
Thus, a claim of ineffective assistance of counsel will maintain its
proper place of collateral review, and will not prematurely merge
with the Defendant’s claim on direct appeal. Citation omitted.
Once the trial court has rendered a decision, the defendant may, if
necessary, resume litigation of his original appeal with the aid of
the appellate defender or independent counsel, whichever is
required under the circumstances of the case.
State v. Veale, N.H. 736.
6. The Court then stayed the case and remanded it to the superior court
for judication, however, the appellate defender remained the counsel of record
for the appeal. Id, at 737.
7. The current case is indistinguishable. The only conflict in this case
was the allegation of ineffective assistance against the Trial Defender. That
issue of ineffective assistance was started to be litigated soon after the
Appellate Defender received the case. See timelines in paragraph #8, below.
Further, it is believed that the Appellate Defender, upon notice that the
Defendant was appealing that ruling, further stayed their work on the case as
required by Veaie. 1 So, despite the Defendant’s claims to the contrary, that
the Public Defender is always barred from representing him on appeal, the very
case he cites and relies on argues the opposite. The Appellate Defender is
barred while the ineffective issue is pending but may be counsel on appeal once
that is resolved. Again, this was the very procedure followed by the Appellate
Defender.
8. The specific timelines of this case are as follow: A. 2015-Waite
convicted by a Cheshire County Jury; B. 2016-Waite files a motion for new trial
and motion of ineffective assistance pro se; Cheshire Superior court denies
both motions in late 2016; C. 2017-Waite pro se appeal of the denial of the

1 The State says believes because it has no access to the Appellate Defender file as that remains confidential at this
point. See accompanying Motion to deem privilege waived. Another reason why the Summary Judgment is
untimely.

V

Ineffective claim directly to the Supreme Court and it is denied late that year;
D. 2018- Supreme Court denies direct appeal where Waite was represented by
the Appellate Defender.
The Habeas Should Be Dismissed as Procedurally Barred
8. The Defendant had recently pursued a Habeas alleging the majority of
the very same issues that were not accepted on appeal by the Supreme Court.
This Honorable Court recently dismissed that Habeas based upon a procedural
bar, namely that the Defendant was barred from re-litigating the same issues
as previously decided and that the few new issues that were raised were barred
as they were well known by the Defendant and not raised on appeal. See
Decision of December 14, 2020 in 213-2014-CR-00223, particularly page 4.
9. Just like the issues raised in the ineffective assistance Habeas, the
Defendant was well aware of this potential issue when he filed his appeal. See
Defendant’s Motion for Summary Judgment, page 2 (citing attorney Dowd
indicating a conflict with the Public Defender Office; the Defendant “repeatedly”
raising the issue with attorney Barnard (his Appellate Defender); and the
Appellate Defender refusing to raise the issue with the Supreme Court.
10. The above, and further statements of the Defendant throughout the
Motion, certainly indicate that h,e believed that this representation was an
issue. Instead of filing an appeal on the issue, he remained silent and allowed
attorney Barnard to argue his appeal at the Supreme Court. Now, that the
appeal was fully denied, he seeks to collaterally attack a process he allowed to
continue because he is unhappy with the results. It should be noted that there
has been zero argument that Barnard’s representation at the appeal was
somehow ineffective, rather it is just that he represented him at all.
11. The Defendant may argue that he did attempt to notify the Court of
the issue but was unsuccessful. That argument should be given very little
weight. He certainly knew how to file an appeal on his own as his Motion for
Ineffective Assistance was submitted through his own actions, both at the
superior and supreme court levels. In fact, that Motion was filed and dejnied
well before the argument on his direct appeal. To argue he was simply stuck
with Barnard flies in the face of his own actions and the record before this
Court. See timelines in paragraph #8. That timeline shows that he filed an

ineffective assistance claim directly to the Supreme Court while represented by
the Appellate Defender. He certainly knew how to bring this issue to the
Court’s attention and intentionally failed to do so.
12. The State would rely upon the reasoning and authorities cited by
this Honorable Court in its December, 2020 decision in docket number 2132014-CR-00223 to rule that this particular argument of conflict with the
Appellate Defender should be barred and dismissed.

WHEREFORE, the State respectfully requests that this Court:
A.

Deny The Motion For Summary Judgment;

B.

Dismiss the Habeas claim against Barnard and the Appellate
Defender;

C.

Allow an extended response time as the Defendant is currently
incarcerated; and

D.

Grant such other and further relief as this Court deems equitable
and just.
Respectfully Submitted,
STATE OF NEW HAMPSHIRE

Isl
Keith W. Clouatre
Assistant County Attorney
Bar number 14883

I certify that a copy of this motion has been forwarded the defendant at Richard
Waite, #91955, Northern N.H. Correctional Facility, 138 East Milan Road,
Berlin, NH 03570 on December 28, 2020.

/s/
Keith W. Clouatre
Upon review of all the pleadings, the Court concurs with the State's analysis. The Motion
to dismiss is granted.
Honorable David W. Ruoff
March 10, 2021

Clerk’s Notice of Decision
Document Sent to Parties
on 03/12/2021

